No. 19-51
IN THE

Supreme Court of the United States
————
BEN BRANCH, WM. CURTIS CONNER,
DEBORAH CURRAN, AND ANDRE MELCUK,
Petitioners,
v.
DEPARTMENT OF LABOR RELATIONS,
COMMONWEALTH EMPLOYMENT RELATIONS BOARD AND
MASSACHUSETTS SOCIETY OF PROFESSORS/MTA/NEA,
HANOVER TEACHERS ASSOCIATION/MTA/NEA,
PROFESSIONAL STAFF UNION/MTA/NEA,
Respondents.
————
On Petition for Writ of Certiorari to the
Massachusetts Supreme Judicial Court
————
REPLY BRIEF
————
BRUCE N. CAMERON
Counsel of Record
BLAINE HUTCHISON
FRANK GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
bnc@nrtw.org
Counsel for Petitioners
December 5, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTRODUCTION ................................................

1

REPLY ARGUMENT ..........................................

1

I. RESPONDENTS ARE WRONG ABOUT
THE ISSUE: COMPELLED POLITICAL
SPEECH, NOT EXCLUSIVE REPRESENTATION, IS AT ISSUE .....................

1

II. RESPONDENTS ARE WRONG ABOUT
THE LAW ..................................................

3

A. The Circuit Split Exists.......................

3

B. State Action Exists ..............................

5

C. Knight Does Not Sanction Compelled
Speech or Foreclose the Decision
Here......................................................

7

III. RESPONDENTS ARE WRONG ABOUT
THE FACTS ..............................................

10

CONCLUSION ....................................................

11

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977) ...................................

8

Hallinan v. FOP,
570 F.3d 811 (7th Cir. 2009) .....................

7

Hovan v. Brotherhood of Carpenters & Joiners,
704 F.2d 641 (1st Cir. 1983) .....................

7

Janus v. AFSCME Local 31,
138 S. Ct. 2448 (2018) ..............................passim
Knox v. SEIU, Local 1000,
567 U.S. 298 (2012) ...................................

6

Minn. State Bd. For Cmty. Colls. v. Knight,
465 U.S. 271 (1984) ............................... 4, 7, 8, 9
Roberts v. United States Jaycees,
468 U.S. 609 (1984) ...................................

7

Rutan v. Republican Party of Illinois,
497 U.S. 62 (1990) .....................................

5, 9

SEIU Local 509 v.
Labor Relations Commission,
729 N.E.2d 1100 (2000) ............................

5-6

W. Va. Bd. Of Educ. v. Barnette,
319 U.S. 624 (1943) ...................................

9

CONSTITUTIONAL PROVISION
U.S. Const. Amend. I ...................................passim
STATUTES
2019 Mass. Acts ch. 73, §§ 1-5 (effective
Sept. 19, 2019)...........................................

11

INTRODUCTION
Respondents argue that coerced speech is acceptable. They admit that the Union forces employees to
choose between their political autonomy and a voice
and vote in their working conditions. But they assert
that this coercion is unobjectionable, because this
Court permits government pressure to financially
support a union’s political activities. Respondents are
wrong. Coerced political speech is never permissible.
The Union’s scheme to pressure public employees to
subsidize the Union contravenes the First Amendment
and subverts this Court’s holding in Janus v. AFSCME
Council 31, 138 S. Ct. 2448 (2018). In Janus, this
Court declared that coerced speech is insufferable in
a democratic society. Free speech is more than an
important value—it is a nonnegotiable precondition
for democracy.
REPLY ARGUMENT
I. RESPONDENTS ARE WRONG ABOUT
THE ISSUE: COMPELLED POLITICAL
SPEECH, NOT EXCLUSIVE REPRESENTATION, IS AT ISSUE.
Respondents are wrong about the questions presented to this Court. They constantly try to recast this
Petition as a challenge to union exclusive representation. Yet this contention is contradicted by the Petition
and the record below.
The questions presented here exclude any challenge
to exclusive representation. As stated in the Petition,
Petitioners do not ask this Court to overturn the
Union’s statutory right to act as the exclusive bargaining representative. Instead, Petitioners argue that the
manner in which the Union has exercised its exclusive

2
authority violates their First Amendment rights.
Rather than challenging exclusive representation, the
questions presented here depend on it.
The court below understood and correctly identified
the nature of this challenge to forced partisan political
speech. Pet. app. 63a–64a. (“[T]hey are not challenging
exclusive representation ‘in the abstract,’ but only
insofar as the unions use exclusive representation to
deprive them of ‘a voice and a vote in their workplace
conditions’ . . . unless they join the unions and support
their politics.”).
Respondents are thus incorrect when they claim
that this case is about exclusive representation. If the
Court grants certiorari and rules for Petitioners,
exclusive representation as a statutory scheme would
remain untouched in Massachusetts (and throughout
the nation). See Pet. 15, 18.
Respondents misidentify the questions here to
avoid this Court’s ruling in Janus. There, the Court
invalidated legal arrangements that allow unions to
compel public employees to subsidize speech. Because
Respondents recognize that coerced speech exists
here, they have sought to circumvent Janus.
Under the current Massachusetts scheme, both the
Union and the government leverage nonmembers’
interest in their employment to force their political
speech. In Janus, the union and the state made the
support of union politics a condition of employment.
In this case, Respondents made support of Union
politics a condition to having a say in the terms of
employment—how much employees are paid, how
much they work, and how much insurance is offered—
matters of supreme importance to workers and their
families. While the mechanism of coercion is different

3
here than in Janus, the existence of coercion is the
same.
However, Petitioners here are not only coerced into
reimbursing the Union for collective bargaining, they
are forced to support Union partisan politics. In
exchange for a voice and vote, employees must become
union members. Union membership entails association and endorsement of the full panoply of union
politics, including candidate endorsement and candidate support through union publications and in-kind
contributions. The coercion here is even more egregious than the coercion in Janus.
While this Court held in Janus that governmentsanctioned unions cannot compel nonunion members
to subsidize private speech, unions across the country
are currently able to achieve the same result. By
simply modifying the punishment—to a denial of a
voice or vote in matters of employment instead of a
denial of employment—unions can compel nonmembers to subsidize private speech on matters of
substantial public concern. If Janus permits that, free
speech means very little.
II. RESPONDENTS ARE WRONG ABOUT
THE LAW.
Respondents are also wrong about the law. On top
of their failure to identify the proper legal issue,
Respondents are wrong that no circuit split exists, no
state action exists, and that governmental coercion is
lawful.
A. The Circuit Split Exists.
By recasting the Petition as a challenge to exclusive
representation, Respondents can attack the existence
of the circuit split. Board Op. brf. at 12. The Petition

4
contains no circuit split claim on exclusive representation. Rather, it shows a circuit split on whether
coerced union speech constitutes state action.
The Board argues that the circuit conflict is “stale,”
but it does not contest that it exists. Bd. Op. brf. at 15–
17. “Stale” presumably means “long standing.” That is
a reason to cure this conflict, especially since the court
below took the most radical position in this conflict by
holding that there is no state action where a government and union agree that nonmembers have no voice
or vote in their working conditions.
The Board attempts to distinguish this case from the
circuit conflict by arguing that it makes a difference
that agency fees were expressly authorized and are
no longer legal after Janus. Bd. Op. brf. at 17–18.
However, exclusive representation is also expressly
authorized, is currently legal, and is used here to
compel the support of union partisan politics.
Respondents’ claim that the existence of state action
turns on the chosen mechanism of coercion rings false.
If coercion is present, and if it arises from a partnership between the government and the Union, then
state action exists. So obvious is state action in the
mechanism at issue here (denying a voice and a vote),
that this Court did not previously consider it a matter
worthy of debate. Minn. State Bd. for Cmty. Colls. v.
Knight, 465 U.S. 271 (1984). Unfortunately, the state
action conflict in the lower courts shows that it has not
been obvious to them.
Respondents’ attack on the circuit split presumes
that coercing employee speech by threatening employment is different than coercing employee speech by
threatening participation in determining workplace
conditions. However, that premise is false. The method

5
of coercion is immaterial. Respondents’ attack therefore fails to undermine the existence of the circuit split.
B. State Action Exists.
Respondents and the lower court are wrong that no
state action exists. In Janus, this Court set about
curing a clearly identified historical problem: union
fee cases had not been treated like other forced speech
cases and were specifically at odds with political patronage decisions. The latter was particularly troubling
because both address insulating government employees
from pressure to support politics. Janus 138 S. Ct. at
2484. In the patronage case of Rutan v. Republican
Party of Illinois, 497 U.S. 62, 77 (1990), this Court
addressed a question of “constitutional magnitude”
that is at the heart of Respondents’ argument. Must
the pressure on employees reach the level of discharge?
This Court answered “no,” and it determined that
pressure even as trivial as withholding a birthday
party is prohibited if the goal is to punish free speech.
Id. at 75 n.8.
Rutan dooms Respondents’ argument here. The
Rutan rule that no punishment is permissible to compel
speech destroys the distinction Respondents make over
the mechanism of coercion. Contrary to Respondents’
claim, barring Petitioners from participation in setting
their level of income, required hours, place of work,
standards of work, and conditions for discharge are
not, under any understanding of English, a matter
internal to the Union. Rather, it is an external punishment regarding every aspect of Petitioners’ employment.
Petitioners are forced to accept the Union as
their agent. Massachusetts law specifically prohibits
Petitioners from direct dealing with their employer.
SEIU Local 509 v. Labor Relations Commission, 729

6
N.E.2d 1100, 1104 (Mass. 2000). Thus, both the Union
and the government agree that the punishment for
Petitioners’ decision to refuse to join the Union is a
denial of the right to a voice and vote on workplace
conditions. It is not an internal matter.
If public-sector union procedures and rules are
immune from constitutional review by merely labeling
them internal union matters, Knox v. SEIU, Local
1000, 567 U.S. 298 (2012), makes little sense. In Knox,
the entire controversy centered on the procedures that
a public-sector union (not the state legislature) used to
extract nonmembers’ fees and use them for political
purposes. Id. at 302. As Knox declared “[t]he First
Amendment . . . does not permit a public-sector union
to adopt procedures that have the effect of requiring
objecting nonmembers to lend the union money to be
used for political, ideological, and other purposes not
germane to collective bargaining.” Id. at 302–03
(emphasis added).
Respondents argue that the Union’s duty of fair
representation, and the employees’ right to decertify
the Union, somehow offset the punishment of being
denied a voice and vote.1 Union Op. brf. at 25.
However, the Board rejected Petitioners’ duty of fair
representation claim below. Pet. app. 19a–22a. The
right to decertify a union requires winning an election.
The First Amendment stands as a bulwark against the
will of the majority.
Respondents correctly argue that not everything an
exclusive representative does carries the force of the
1

The Union also makes the incredible assertion that the issue
of state action was not properly preserved. Yet the issue was
presented and addressed extensively by the lower court. Pet. App.
64a–65a.

7
state. They cite, as did the court below, private sector
cases like Hovan v. Brotherhood of Carpenters &
Joiners, 704 F.2d 641 (1st Cir. 1983), where an
employee sued to become a union member without
taking a union oath. They also cite Hallinan v. FOP,
570 F.3d 811 (7th Cir. 2009), where union members
objected to being expelled from membership. And they
cite Roberts v. United States Jaycees, 468 U.S. 609
(1984), for the proposition that private organizations
cannot be forced to admit into membership individuals
they reject. These cases are irrelevant because
Petitioners are undisputedly not seeking to become
members of the Union. They are not seeking to control
the Union. They are not seeking to bargain separately
with their employer. They are only requesting a voice
and a vote in Union meetings without having to
compromise their political autonomy. Giving them a
voice and a vote simply allows them to influence
decision making.
C. Knight Does Not Sanction Compelled
Speech or Foreclose the Decision Here.
While lowering their voices about how Minnesota
State Board for Community Colleges v. Knight, 465
U.S. 271 (1984), might have been able to pass on the
constitutional issues absent state action (the first
issue in this petition), Respondents shout the merits
of Knight’s constitutional rulings as foreclosing the
second issue raised in the Petition—using exclusive
representation as the mechanism to coerce partisan
political speech. The constitutional rulings in Knight
do not sanction the political coercion here for three
reasons.
First, Knight specifically disclaimed coercing nonmember support for union politics. Knight, 465 U.S. at
289 and 289 n.11 (“This requirement [to pay union

8
fees] is not at issue”), 291 n.13 (“[T]his case involves
no claim that anyone is being compelled to support
[union] activities.”). The Court prefaced the “pressure”
passage from Knight, which Respondents heavily rely
on, with a disclaimer that the plaintiffs did not challenge any “monetary contribution[s]” to the union’s
ideological activities. Id. at 289. And the Court
was careful to note that Abood v. Detroit Board of
Education, 431 U.S. 209 (1977), would have applied if
forced fees were raised. Knight at 291 n.13. Because
Janus has now replaced Abood, the updated version of
Knight would agree with Petitioners’ argument here:
the compelled support of union politics is forbidden
regardless of the mechanism used for the coercion.
Second, this Court has clarified the level of
constitutional scrutiny since Knight. Janus noted that
various levels of scrutiny had been applied to free
speech cases in the past, but now the Court would
apply exacting scrutiny. Janus 138 S. Ct. at 2464–65.
Knight was opaque about the level of scrutiny applied,
mentioning only the rational basis test. 465 U.S. at
291. Exacting scrutiny, as Janus explained, applies
the compelling interest, least restrictive alternative
test. That level of scrutiny is notably absent from the
Knight decision.
Critically important is that Janus signaled that
strict scrutiny, a higher level of scrutiny, might be
more appropriate to compelled union fee cases. Janus
138 S. Ct. at 2465. This case goes beyond Janus, which
only involved forced agency fee reimbursement for
collective bargaining. Here, Respondents mandate the
payment of union dues, which requires forced payment
for partisan politics, including candidate endorsement. The lower court clearly erred, because it applied
no level of First Amendment scrutiny. See Pet. App.

9
63a–68a. Knight similarly failed to apply the proper
level of scrutiny, although it did not involve coerced
payment for politics. Strict scrutiny should be applied
here.
Third, Respondents and the court below freely admit
the pressure Petitioners feel to join the Union to obtain
a voice and vote in their workplace conditions. Pet.
App. 58a; Board Op. brf. at 13; Union Op. brf. at 3.
This pressure is fine, according to Respondents,
because Knight says it is fine. Yet, to the extent that
dicta in Knight permits unions to “pressure” employees to abandon their own political views and subsidize
the political views of the union, that dicta directly
contradicts the political patronage line of cases. Those
cases teach that state actors may not maintain environments that pressure employees to support political
views. Rutan, 497 U.S. at 73, 79. The patronage line of
cases is critical and bars this pressure. Therefore,
when the correct precedent and proper level of scrutiny
are applied, Respondents’ conduct fails to pass constitutional muster.
Given that this Court protected individuals from
coerced speech in the form of “pressure” in several
other contexts—whether in public schools, see, e.g.,
W. Virginia State Bd. of Educ. v. Barnette, 319 U.S.
624, 642 (1943), or in patronage practices in public
employment, see, e.g., Rutan, 497 U.S. at 79—the
Court should equally protect Petitioners here from the
pressure exerted by Respondents to support Union
politics.
If this Court believes that Knight has some
applicability here, it should grant this Petition and
clarify what the Court meant by signaling a new
higher level of scrutiny in Janus and a desire to align
the political patronage and union fee cases. Because

10
no justification exists to force citizens to support a
specific political candidate, no level of judicial scrutiny
or legislative justification saves Respondents’ scheme
here. Compelled political speech that fits under
the new strict scrutiny standard should be per se
unconstitutional.
III. RESPONDENTS ARE WRONG ABOUT
THE FACTS.
Finally, Respondents are wrong about the facts. The
Union argues that the Petition is “fact-bound,”
meaning that the issues presented here are unique to
the parties and do not implicate a broader pattern of
conduct. Union Op. brf. at 21. Yet the facts of this
Petition denote a persistent problem. The Union’s
mandatory information to nonunion employees begins
with a “WARNING” that if they refuse to join, they
will “not participate in the collective activities and
decision making of the association that influences the
terms and conditions of [their] employment.” Pet. App.
78a. The Union even inadvertently admitted that the
facts here are common. “[C]ourts have long acknowledged that the union will privately decide who will do
the talking and that only union members vote.” Union
Op. brf. at 3.
This admission of the widespread nature of the
problem negates the Union’s “fact bound” claim. And
the problem will likely become more acute. Before
Janus, unions could compel fees from nonmembers by
threatening their employment. With the demise of
mandatory union fees, the union practice at issue in

11
this Petition takes center stage as the main mechanism for employee coercion.2
Although this Court was clear in Janus that coerced
speech is untenable, Respondents and the lower court
agree that coerced speech is permissible here. Without
intervention by this Court, the egregious practice of
compelled political speech will continue, and it will
occur on a broad level. This Court should clarify that
coerced political speech is per se unconstitutional
regardless of the mechanism of coercion. Otherwise,
Janus will be relegated to mean that coerced speech is
unconstitutional only if it is imposed as a condition of
employment.
Free speech is essential to our democratic government, and this Court should not overlook its clear
violation here. Coerced speech is antithetical to freedom and democracy.
CONCLUSION
This Court should take this case to resolve the split
among the lower courts on state action, clarify the
level of First Amendment scrutiny that applies in
labor relations cases that involve infringement on
speech and association rights, and hold that no state
2

The precise nature of coming coercion in Massachusetts is
hard to predict. Although Petitioners’ agency fee challenge was
dismissed as moot post Janus, the State Legislature refused to
repeal the statutory provisions permitting compulsory fees,
instead passing new provisions giving unions greater workplace
access to employees and invading employee privacy at home by
mandating the disclosure to the union of employee personal cell
phone numbers and email addresses. At the same time the
legislature made it harder for employees to resign union membership and outside groups to inform employees of their rights. See
2019 Mass. Acts ch. 73, §§ 1–5 (effective Sept. 19, 2019).

12
interest justifies allowing unions to weaponize their
state-granted authority as an exclusive representative
to force public employee speech.
The writ of certiorari should be granted on both
questions presented.
Respectfully Submitted,
BRUCE N. CAMERON
Counsel of Record
BLAINE HUTCHISON
FRANK GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
bnc@nrtw.org
Counsel for Petitioners
December 5, 2019

